                       CLOSEOUT FOR 93040023
     This case was brou
         program officer
He had received a lette




     OIG determined that the first paper in fact cited N S F support.
The complainant states that the paper does not clarify that certain
eauipment was developed bv N S F srantees, rather than bv researchers

had no obligation tospecify in detail exactly how and where N S F
support contributed to their research and that a general
acknowledgement of N S F funding was sufficient.    We therefore
decided not to pursue the allegation regarding the first paper.
     OIG wrote to the authors of the second paper asking them
whether, in their view, their work had been supported by N S F and
asking them to acknowledge N S F support if they had in fact received
                           -
it. The first author responded.       He claimed that his data were
obtained in                                    after the two year N S F
grant had ended. He agreed that the second author participated in
the NSF project that in            constructed similar or identical
instruments to those used to collect the -data,        but maintained
that the data themselves were collected on instruments provided and
funded by others.          Thus the first author argued that
acknowledgement of N S F would be inappropriate.
     OIG concluded that the first author offered a plausible, good
faith account of his decision not to cite N S F support. Where an
author makes a plausible case that N S F did not support his or her
work, OIG generally defers to his or her judgment. Interested
scientists may challenge that judgment by requesting that journals
correct the record.
     The complainant's original letter also alleged that certain
N S F funded equipment was modified in potentially damaging ways
without the consent of the first principal investigator on the
grant. The lettc~:implied that one or more of the authors of the
above mentioned articles, one of whom was a co-P.I. on the grant,
modified this equipment. Since this issue appeared to concern the
                             page 1 of 2
internal administration of the grant and did not       raise an
allegation of misconduct, we chose not to pursue it.
    This case is closed and no further action will be taken.




Staff Scientist, Oversight
Concurrence:




cc: Signatories
    Inspector General.




                             page 2 of 2
